. -\ '



          Department of Health and Human 
                           Servces
                          OFFICE OF

                     INSPECTOR GENERAL





         SUCCESSFUL OMBUDSMAN PROGRAMS





                                             Vl.
                                                   Richard P. Kusserow
                                                   INSPECfOR GENERA
                                  11



                                             oIa         JU 1991
                                                                                                     , - l'



                            OFFICE OF INSPECTOR GENERAL

 The mission of the Offce of Inspector Genera (OIG), as madated by Public Law 95- 452 , as
 amended, is to protect the integrty of the Depanent of Health and Human Services ' (HHS)
 progrs as well as the health and welfare of beneficiares served by those progrs. This
 statutory mission is cared out though a nationwide network of audits, investigations, and
 inspections conducted by thre OIG operating components: the Offce of Audit Services, the
 Office of Investigations, and the Offce of Evaluation and Inspections. The OIG also infonns the
 Secretar of HHS of progr, and maagement problems, and recommends courses to correct
 them.

                               OFFICE OF AUDIT SERVICES
The OIG' s Offce of Audit Services (OAS) provides all auditig services for HHS, either by
conducting audits with its own audit resources or by overseeing audit work done by others.
Audits examne the perfonnance of HHS program and/or its grantees and contractors in
caring out their respective responsibilities and ar intended to provide independent
assessments of HHS programs and operations in order to reduce waste , abuse, and
mismanagement and to promote economy and effciency throughout the Depanment.

                               OFFICE OF INVESTIGATIONS
The OIG' s Office of Investigations (01) conducts crmial, civil , and admisttative
investigations of allegations of wrongdoing in HHS programs or to HHS beneficiares and of
unjust enrchment by providers. TIe investigative efforts of 01 lead to criminal convictions
administrative sanctions , or civil money penalties. The 01 also oversees State Medicaid fraud
control units which investigate and prosecute fraud and patient abuse in the Medicaid program.

                       OFFICE OF EVALUATION AND INSPECTIONS
The OIG' s Office of Evaluation and Inspections (OEI) conducts short-tenn management and
program evaluations (called tnspections) that focus on issues of concern to the Depanmem , the
Congress, and the public. The findings and recommendations contaned in these inspection
repons generate rapid , accurate , and up- to-dte infonnation on the effciency, vulnerability, and
effectiveness of depanmemal programs. This study was conducted in the New York Regional
Offce under the diection of Thomas F. Tully, Regional Inspector General , Region II
                                                                                       , Office of
Evaluation and Inspections and Alan S. Meyer, Deputy Regional Inspector General.
Panicipating in the project were the following people:

Renee C. Schlesinger     (Project Leader)     Alan S. Levine,
    Headquarters
Demetta Arpakos                               Thomas A. Purvis,     San Francisco
Nancy Harson
Raul Manynek
. ,   ..'


             Department of Health and Human Servces

                     OFFICE OF

                INSPECTOR GENERAL





            SUCCESSFUL OMBUDSMAN PROGRAMS





                          VlCI.

                                  Richard P. Kusserow
                                  INSPECfOR GENERAL
                    I'



                         ~oIa OEI-02-90-02120
                     EXECUTIVE SUMMARY

 PURPOSE

 The purose of this inspection is to determne the charcteristics   of successful State long   term
 care ombudsman progrs.


 BACKGROUND

 The State Long Term Care Ombudsman progr was established in response to growing
 concern over the poor quality of care in nursing homes. The Act requires each State Unit on
 Aging to establish and operate, either diectly or under conttact, an Ombudsman program. In
 1981, the Ombudsman program was extended to board and car facilities.

 The ombudsman is to be an advocate of the institutionalized elderly to ensure that they have a
 vigorous voice in their own tteatment and care. Some activities include investigating and
 resolving complaints on behalf of elderly residents of long term care facilities, infonning
 residents of their legal rights and providing information on long term care issues to public
 agencies, legislatures and the community-at- large. Most of the State Ombudsman programs
 operate under the diect auspices of their State s Unit on Aging.

 In October 1988, the AoA funded the formation of the National Center for State Long Term Care
 Ombudsman Resources to provide training, technical assistance and information exchange on
 long term car and ombudsmen issues to ombudsmen.


 METHODOLOGY

  This inspection included the following activities: 52 telephone interviews with ombudsmen
  from all States, the Distrct of Columbia (DC) and Puerto Rico (PR); onsite visits with six State
  Ombudsman programs involving interviews with the ombudsman, sub- State program officials,
- directors of the State Units on Aging, advocacy groups and/or other experts in the field (28).
  Additionally, the State ombudsman programs were rated on their responses to certain criteria for
  visibility and complaint resolution obtained from the telephone interviews.


 FINDINGS

 Twelve programs (CA, CO, DE , DC, KY, LA , MA, MI, NM , OH , OR and TX) were identified
 as the most successful based on the information obtained from telephone surveys, onsite visits
 and the use of scoring criteria.
The Most Successful Programs Are Highly Visible

Through the use of paid staf and volunteers, these programs visit facilities very frequently,
typicaly weekly. These visits famliarze residents with the ombudsman personally and the
progr in genera. In conttast, the remaining 39 programs are not nearly as likely to visit as
often.

While the successful programs increase their visibility with the assistance of volunteers, nine
other programs have   no  volunteers. Some less successful States have volunteers in some
regions of the State, but not in others. The top States are effective in recruiting, ttaining and
retaning volunteers. Paid staf playa major role in their efforts to recruit, ttain , supervise and
maintan volunteers.

Successful progrs make themselves very visible in the aging community through the use of
posters or brochures, publicized toll- fre numbers and community outreach efforts.

Successful progrs respond onsite to potentially life- threatening complaints within 24 hours;
all but three of the top programs actually respond to all complaints, both life-threatening and non
life- theatening within 24 hours. In conttast, alost 20 percent of the ombudsmen from the 39
remaining States require from three days to a week to respond to potentially life-threatening
complaits.

Successful Programs Obtain Adequate Funding And Support

All States link adequate funding with having more professional staf, which allows them to visit
facilities more frequently; to improve response time to complaints; to ttain and supervise staff
and volunteers, and to become more involved in legislative planning and decision-makng. Most
States would give priority to hirng more professional staff if additional funds were made
available.

Many successful State ombudsmen enhance their budgets through innovative fund-raising
techniques. Some use traditional methods such as bake sales, auctions and $100-a- plate dinners,
while others have developed more sophisticated approaches.

Strong enabling legislation , legal support, independence and other intangible factors are
considered important for success.

Ombudsmen Want Additional Support

Ombudsman generally feel the National Resource Center is helpful , but would like, the Center to
get more involved in ttaining, as well as become more active in circulating information about
best practices and other ombudsman issues.

Ombudsmen would also like more direct involvement with AoA; including an AoA focal point.
. ,




      RECOMMENDATIONS

      The Admisttation on     Agig should work with the States in addressing the concerns of the
      ombudsmen by:

             Developing model operational guidelines in aras such as frequency of visits; staff- to- bed
             ratios; volunteer-to- bed ratio; complait response time; complaint resolution percentages;
             recruitment , trning and retention of staff and volunteers; and program publicity.

             Providing technical assistace regarding the use of volunteers, fund-raising, obtaining
             legal support, confidentiality and other areas of concern.

             Assuring that information about successful program and effective techniques (including
             that obtained in this inspection) is dissemiated to States in a systematic and detailed way
             with recommendations for implementation.

             Responding to the concerns of ombudsmen about sttengthening the role of the Resource
             Center.


      COMMENTS

      Comments received from AoA were generally supportve of our findings and recommendations.
      However, AoA is concerned that we do not acknowledge the extent to which the National
      Resource Center is involved in supporting the Long Tenn Car Ombudsman Program. We
      should note that it was not within the scope of our study to evaluate the Center, itself, but rather
      to obtain the sentiments of the ombudsmen regarding the Center. We have added AoA'
      information about the Center to the background of the report. It may be helpful for AoA to
      communicate more fully with ombudsmen about the activities of the Resource Center.

      The comments of AoA essentially respond to the study recommendations. These comments are
      in Appendix A.
" ,                                                                                                        ............
                                                                                                                ...... ..............         ..................
                                                                                                                                       ..........................
                                                                                                                              .. .... .................. .....................................................
                                                                                                                                                                 .............................................
                                                                                                                                                                   ......................  ...................
                                                                                                                                                                                .... .... ........ .... .. ...... ..




                                                                  TABLE OF CONTENTS

      EXECUTIV SUMMARY

      INTRODUCTION.......... ......

                        Purpose................................................................................. 





                        Background.................................................................................... ......................


                        Methodology........................................................................................................ 3





      FINDINGS................................................................................................................. 





                        The most successful programs are highly visible.................................................

                        Successful progrs obtain adequate funding and support ................................

                        Ombudsmen want additional support....

      RECO MMENDA TIO NS




                        Comments.......................................................................................................... l 0


      APPENDIX A: COMMENTS TO DRAFT REPORT 
                                                                                                                     ....................................... A­

, ,




                                    INTRODUCTION

      PURPOSE

      The purpose of this inspection is to determne the charcteristics   of successful State long   term
      care ombudsman progrs.


      BACKGROUND

      History

      The State Long Term Care Ombudsman program was established under the Older American
      Act (OAA) in response to growing concern over the poor quality of car in nursing homes. The
      ombudsman was to be an advocate of the institutionalzed elderly to ensure that they have a
      vigorous voice in their own treatment and care. The Ombudsman program is modeled after a
      similar progr in Scandiavian countres.

      In 1972 ,   the Admnistrtion on Aging (AoA) awarded seven States conttacts to car out long
      term care ombudsman demonstration projects. In 1975, amendments to the OAA authorized
      AoA to make grants for all States to have ombudsman projects. Further amendments in 1978
      required each State Unit on Aging to establish and operate, either directly or under contract , an
      Ombudsman program. In 1981 , the Ombudsman program was extended to board and care
      facilities.

      Prior to FY 1987 the OAA required States to spend at least one percent of their supportive
      services allotment under Title Ill- B of the OAA or $20, 00, whichever was greater, to support
      statewide ombudsman activities. Based on amendments in 1987 States must in the future spend
      at least as much on the Ombudsman program as they did in FY 1987, as long as Federal
      allotments continue above 1987 levels.

      Role of ombudsman

      Ombudsmen conduct a varety of activities in the long-term care community. They investigate
      and resolve complaints on behalf of elderly residents of long term car facilities concerning
      matters that may adversely affect their health, safety, welfar or rights. They also inform
      residents of their legal rights and provide information on long term care issues to public
      agencies, legislatures and the community-at- large. They trn volunteers and promote the
      development of grass roots organizations to assist long term care residents. Additionally, they
      monitor the development and implementation of Federal , State and local laws relating to long
      term care.

      Most of the State Ombudsman programs operate under the diect auspices of their Stare s Unit on
      Aging, which assures that OAA requirements are met. Most States also have sub- State
. ,




      Ombudsman progrs. These are progrs in varous aras of the State that have ombudsman
      responsibilties. These ar either managed directly by the State or are sponsored by a varety     of
      organizations, including Ara Agencies on Aging, other sub- State governmental units, citizen
      advocacy committees and private, non- profit organizations.

      National Center for State Long Term Care Ombudsman Resources

      In October 1988, the AoA funded the formation of the National Center for State Long Term Care
      Ombudsman Resoures (caled the Resource Center). The center is admnistered by cooperative
      agreement with the National Association of State Units on Aging (NASUA), which operates it
      cooperatively with the National Citizens Coalition for Nuring Home Reform. The Center
      provides ttning, technical assistance and information exchange on long term care and
      ombudsmen issues.

      The goal of the Center is to enhance the capacity of the nation s State Units on Aging in the
      design, development and admnistrtion of Statewide Ombudsman Programs. The Center
      priar    focus is on building Statewide systems of ombudsman services to address the issues
      facing older residents in long term car facilties.

      Durg its fIrst two years, the center initiated a number of activities including: development of a
      State Ombudsman Resource Manual; multi-regional teleconferences for information sharng
      with and among States; a National Traning Conference for Ombudsman and State staff; training
      modules for States to use in ttaining local ombudsmen; simplified guides to OBRA legislation; a
      bi-monthly Center newsletter called the " Ombudsman Reporter ; and , the production of a video
      to inttoduce the Ombudsman Progrm to the genera public that wil also serve as viable
      recruitment tool.

      National Association of State Long Term Care Ombudsman Programs

      The National Association of State Long Term Care Ombudsman Programs, established to
      provide a common voice for all S tate Ombudsman programs, informs ombudsmen of
      opportnities available through Federal sources, panicularly the AoA. It also promotes the
      sharng of ideas and experiences among State ombudsman staf.

      Prior Studies

      The National Center for State Long Term Care Ombudsman Resources recently completed two
      studies on the Ombudsman program. The first surveyed all State ombudsmen regarding their use
      of volunteers and found the recruitment of volunteers to be the most difficult management task.
      The second study, which examined ombudsmen involvement in board and care found it
      insufficient. It reported that the degree to which ombudsmen work with board and care is
      dependent upon the number of total licensed facilities and the number of paid and volunteer staff
      in the State.



      Three recent OIG studies have touched upon the activities of the Ombudsman program , one
      entitled " Board and Care Homes " (OEI- 02- 89- 0l860) and two others entitled " Resident Abuse
in Nursing Homes " (OEI- 06- 88- 00360 and OEI-06- 88-O361). The fIrt found varability in the
level of service delivery among Ombudsman progrs; the latter two identifed weakesses in
State complaint-reportng systems and reponed that ombudsmen consider many areas of patient
abuse and neglect to be serious problems in nursing homes.

The Genera Accounting Offce (GAO) and the House Select Commttee on Agig have issued
reports on board and car homes which address the role of the ombudsman in those facilities;
both found that the ombudsman does not always get involved when abuse and neglect occur in
board and car homes.

The ombudsmen from Louisiana and Massachusetts presented a repon at a conference in June
1990 to the Senate Special Commttee on Aging entitled " Capacities of the State Long Term
Care Ombudsman Progrs. " Their conclusions were that: (1) Federa funds are distrbuted to
the States according to a formula that does not correspond to the number of clients ombudsmen
serve; (2) stafng levels between State Ombudsman program var; and (3) Ombudsmen believe
they are severely limited by fiscal and personal constraints.

The Ohio State ombudsman presented a paper at the same conference identifying three barers
to effective advocacy: (1) the unspecified role of Area Agencies on Aging in monitoring the
Ombudsman progrm; (2) difficulty in maintaining confidentiality; and (3) the limited provision
of legal representation to ombudsmen.


METHODOLOGY

This inspection was conducted in three phases. Firt, ombudsmen from all States, the Distrct of
Columbia (DC) and Pueno Rico (PR) were interviewed by telephone and asked to identify some
programs they felt were the most successful across the countr and best practices for certain
ombudsman activities. They were also asked to suggest criteria for successful progrs;
describe and assess the dissemination of such information; and to recommend the most effective
way to use ombudsman funds.

Second, based on the above discussions, on the results of a literature review and on the
recommendations of expens in the field, six State Ombudsman progrs (CA , DC, MA , MI , NJ
and OH) were selected for onsite visits. Four (CA , MA, MI, OH) received the most votes from
other ombudsmen as representing a model program. The other two (DC, NJ), also well regarded.
were selected primarly because of their unique featurs: the NJ progr is one of the few that is
located in an independent State agency and has a sttong enforcement focus; DC conttacts out all
its services to the American Association of Retied Persons (AARP). Discussions were held
during onsite visits with the State Ombudsman, sub- State program offcials, directors of the State
U nits on Aging, advocacy groups and/or other experts in the field. These discussions provided
information on why these State programs are effective and how they overcame barers. In all
28 interviews were conducted onsite.

Additionally, 51 State ombudsman programs (one was not included due to lack of information)
were rated on their responses to certain criteria for visibility and complaint resolution which
were obtained from the telephone interviews. Visibility crteria included the frquency of visits
to each facilty annually, the ratio of professional staf to the number of long term care facility
beds, and the ratio of volunteers to beds.

Based on the frequency distrbution   of each, every State s perfonTance was scored from high to
low. The same was done with complaint resolution criteria which dealt with response time to
both life thatening and less serious complaints, and the percentage of complaints resolved. The
number of votes each State program received from other ombudsmen as being a model State was
incOIporated into the score. All the scores were then totalled to obtain a final score for each
State.
                                                   FINDINGS

        Twelve programs (CA, CO,     DE, DC, KY LA , MA, MI, NM, OH, OR and TX) were
        identifed as the most successful based on the informtion obtained from
        telephone surveys, onsite visits and on the use of scoring criteria. The 12 most
        successful programs included the top four selected for onsite visitation. This is
        not to say that there are not some very goodfeatures in other programs. In fact
       25 scored as moderately successful, while     scored as least successful. In
                                                              14

        discussing the findings, however, the moderate and least successful are grouped
        together when contrasts are mae to the successful programs. Thefollowing
       findings characterize the key features of       most successful programs.
                                                        the        12

       Additionally, an indepth case study analysis of the onsite visits wil be reported   in
       a subsequent inspection report.




THE MOST SUCCESSFUL PROGRAMS ARE HIGHLY VISIBLE

They visit facilties       very frequently.


Through the use of both paid staff and an extensive volunteer program, these programs typically
make weekly visits to all nursing homes in their States. These visits ar proactive in nature and
are intended priarly to familarze residents with the ombudsman personally and the program
in general. During these visits the ombudsmen speak to residents and staff and identify
complaits. The hope is that their presence may prevent futu problem situations. As one
ombudsman said, " the ombudsman concept is to be omnipresent in facilties. " An ombudsman
from New England stated, " Our regular presence has had enonnous impact on the qualty of care
in facilities. We effect change, accomplish systematic change which reflects a good program.
One local program assigns a volunteer to each facilty in its region to provide this regular
presence.

In contrst, the  remaining 39 programs ar not nearly as likely to visit as often. Nineteen (49
percent) visit nursing homes only four times a year or less, while six programs (15 percent)
respond to complaints only, bUt do not make routine visits. In those States there are many
residents who never see an ombudsman. A total of nine (23 percent) of the less successful States
make monthly visits and five (13 percent) report visitig al nursing homes weekly. As an
ombudsman from a small rural State said, "When we get to homes we do really good work , but
we are not in homes as much as I want to be."

While the successful programs are able to increase their visibilty with the assistan e of
volunteers, nine other                    volunteers. One ombudsman from the Midwest
                               progrms have        no

reported, " Our Legislature has mandated we not use volunteers." States without volunteers
appear to be more limited in their ability to make routine visits. Five visit one to four times a
year, three only respond to complaints and the last makes monthly visits. Some less successful
States have volunteers in some regions of the State, but not in others. An ombudsman from the
                                                                           , "





Southwest said, " In the facilties where we have volunteers we ar    making a dent, there   s a lot
out there we ar not addrssing.

Top States are effective in recruiting, training   and retaining volunteers.


In these States good recruitment involves targeting the right audience at both the State and local
levels, with an excellent source being the elder network. These programs often tap the services
of the AARP, which helps State ombudsmen by mailing volunteer information to its members
and asking people to join the ombudsman effort. Another effective source is the word-of-mouth
recruitment efforts of their curnt volunteers who ar able to communicate to others the realities
of the job. When successful ombudsmen recruit volunteers, they are honest about the demands
of the work from the beginning. One successful State program is able to recruit lawyers who
donate their services.

These top States consider extensive ttning and staf support vital in order for volunteers to be
effective. Several have detailed volunteer training manuals. One State has incorporated its
volunteer training guidelines in legislation. It also employs a tiered approach with increased
ttning hours linked to increased responsibilty levels, a way to build a career ladder.

Paid staf playa major role in the volunteer effort. One ombudsman said If you don t have
paid sta, you don t have a volunteer program. " Many ombudsmen feel that volunteers need as
much , if not more, supervision and backup as other staff members. Some ombudsmen express
the need for additional staff in order to recruit, ttn, supervise and maintain volunteers. One
reflected the feelings of others when she said, " We rely heavily on volunteers but we need good
staf to supervise them.



Good volunteer progrs retain workers by recognizing their worth. They treat the volunteers
the same as the paid staff, have the same expectations of them and honor them with special
awards and ceremonies.

The best programs are highly publicized.

Successful programs make themselves very visible in the aging community through the use of
posters or brochures, publicized toll- free numbers and community outreach efforts. Other
techniques include informing all residents about the ombudsman program upon admission
media exposure, such as radio or television spots, and in-service trining for staf of the facilities
on the ombudsman program.

In contrast, only approximately half of the remaining 39 progrms make themselves available in
a similar fashion to the successful ones.

Successful programs handle complaints expeditiously.

All but one of the top States respond onsite to potentially life-threatening complaints within 24
hours. These complaints involve abuse or neglect which may seriously jeopardize a person
well- being. Moreover, al but the of the top progrs actually respond to all complaints, both
life- theatening and non life- theatening within 24 hour.

In contrst, almost 20 percent of the   ombudsmen frm the 39 remaining States require from
thee days to a week to respond to potentially life- theatening complaints; 46 percent take four
days or more to respond to non life-threatening complaits. One State taes months before
being able to respond to some complaints; others report not being able to respond for several
weeks.

Almost all successful State ombudsmen report at least three- quarers of their complaints being
resolved to the point of closur within 12 months, although they, and other ombudsmen, report
some inconsistencies in how they define complaints resolved.

Approximately half (56 percent) of the remaining 39 States similarly report coming to closure on
75 percent or more of their complaints in a 12-month period; 21 percent close between 65 and 75
percent of complaints; and 21 percent come to closur on less than 65 percent of their complaints
in a 12 month period. Of these , one State with limited staf and no volunteers reports coming to
closure on only 25 percent of their complaints in a given year. One State does not even keep this
statistic.


SUCCESSFUL PROGRAMS OBTAIN ADEQUATE FUNDING AND SUPPORT

States report innovative fund-raising techniques.



All States link adequate funding with having more professional staf, which allows them to visit
facilities more frequently; to improve response tie to complaints; to train and supervise staff
and volunteers, and to become more involved in legislative planning and decision-making. Most
States would give priority to hirng more professional staf if additional funds were made
available. An ombudsman from a rural western State stated, "There is a direct correlation
between funding and effectiveness, it allows for more sta.

Many successful State ombudsmen enhance their budgets through innovative fund-raising
techniques. Some use ttaditional methods such as bake sales, auctions and $100-a- plate dinners,
while others have developed more sophisticated approaches.

One Western State imposes a $3 surcharge on nursing home and board and care licensing fees,
thus raising about $140, 000 a year. Deposited into a special fund controlled by the State Board
on Aging, this money is given to the Ombudsman progr for use in education, parcularly the
ttaining and organizing of resident s councils. Another top State has a similar bed tax which
goes to the Ombudsman program.

A local program in a Southern State has a budget of $250,000 with only $30, 000 coming from
the Federal and State governments through the AAA. Not housed in any State or local
government agency, it is able to secure funds from the United Way, mayors and other
organizations. Its dynamic distrct director spends much of her time raising funds, a task she
, ,                                        '.                       , "





      feels is made easier because the agency is private and non- profit. A State or local government
      agency would have a diffcult time getting such donations. The fund raising is seen as having
      the additional benefit of enhancing community education and outreach for the ombudsmen
      progr.
      Other programs sell their knowledge to generate income. For instance, one program has
      developed a game called " Resident Bingo, " which is sold nationally to long term care facilties
      to help famliarze residents with their rights and with how to refer problems to ombudsmen. A
      Midwestern progr is located outside of the State government so it can charge facilities, such
      as nuring homes and hospitals, for in service trning,   mileage, and materials such as brochures.
      A local ombudsman in this State said, "We take full advantage of the language in the OAA which
      mentions the ' opportunity to donate

      Strong enabling legislation and legal support strengthen programs.

      Five of the top programs were cited by other ombudsmen for their strong enabling legislation
      which is comprehensive, succinct and easy to understad. One such statute gives the
      ombudsman immunity from liabilty when acting in good faith. AnOther State s legislation
      allows the ombudsmen to grant confidentiality and immunity to all complainants and issue
      subpoenas for documents or testimony.

      Strong legal support is also cited as important. Several successful programs have ombudsmen
      who ar lawyers. One large progr in the West reports that each one of its 35 local programs
      has access to legal support. Other top programs contract with an attorney or a law firm for legal
      support.

      Independence and other intangible factors make a difference.

      Many ombudsmen consider progrm independence importnt for success. Several programs
      contrct with outside agencies for ombudsman services in order to obtain such independence.
      One ombudsman reflected the feeling of others when he said Ombudsmen should be
      independent to avoid conflict of interest. " AnOther said, " We should be independent.. .location of
      the progr is the real issue... advocacy and service delivery don t combine.

      The Office of Ombudsman in a Northeastern State is independent and exempt from conttol or
      supervision by any deparent of the State government by statute. The Offce reports directly to
      the Governor and Legislature. This administrtive autonomy allows the ombudsman to act
      quickly and effectively, responding in 24 hours or less. Another advantage is a high profie and a
      certn amount of clout because of its close association with the Governor.


      Other intagible   factors involved in successful performance include: the personality and
      leadership style of the State ombudsman (when respondents recommended model programs they
      often mentioned this as an important factor); the ability of the program to influence legislation or
      change policy ( as one very successful State ombudsman said "We have systematic impact , we
      solve problems through .regulatory reform ), and the relationship of the ombudsman program
      with other State agencies and providers. A successful ombudsman said, " We are widely
recognized and respected by the provider community. " Another remarked, "We have an
excellent relationship with major agencies, an excellent image in the State.


OMBUDSMEN WANT ADDITIONAL SUPPORT

More than hal,   54 percent, of the State respondents say that they ar   not kept informed about
best practices. Only 25 percent of the ombudsmen report receiving this information from the
National Resource Center. They report this information is not circulated systematically. Best
practices may be highlighted in the Resource Center s newsletters, a newsletter from a State
Ombudsman progr or in material received from other soures.

Ombudsman generally feel the Resource Center is helpful. One said, " I would like to see the
Resource Center continued. " Other ombudsman recommend that the Resource Center get
involved in ttaiing as well as more active in cirulating infonnation about best practices and
other ombudsman issues.

Over half of the ombudsmen report receiving infonnation diectly from the AoA, but consider it
limited and not always helpful. Many (40 percent) would like more direct involvement with
AoA. Some mentioned a designated AoA focal point. One ombudsman said, " We need more
Federal diection. " Another requested, " n. more guidace from AoA on how the program should
be admnistered, more Federal guidelines. " And another agreed saying, "We need clear
regulations and model guidelines.
                       RECOMMENDATIONS

The Administration on Aging should work with the States to address the concerns of the
ombudsmen by:

       Developing model operational guidelines in aras such as frquency of visits; staf-to- bed
       ratios; volunteer-to- bed ratio; complait response time; complaint resolution percentages;
       recruitment, trning and retention of staf and volunteers; and progr publicity.

       Providing technical assistace regarding the use of volunteers, fund-raising, obtaning
       legal support, confidentiality and other areas of concern.

       Assurng that information about successful programs and effective techniques (including
       that obtained in this inspection) is disseminated to States in a systematic and detailed way
       with recommendations for implementation.

       Respondig to the concerns of ombudsmen about sttengthening the role of the Resource
       Center to provide information about best practices and model States in a more systematic
       way and provide trning on a regular basis.


COMMENTS

Comments received from AoA were generaly supportive of our findings and recommendations.
However, AoA is concerned that we do not acknowledge the extent to which the National
Resoure Center is involved in supportng the Long Term Car Ombudsman Progrm. We
should note that it was not within the scope of our study to evaluate the Center, itself, but rather
to obtain the sentiments of the ombudsmen regarding the Center. We have added AoA'
information about the Center to the background of the report. It may be helpful for AoA to
communicate more fully with ombudsmen about the activities of the Resource Center.

The comments of AoA essentially respond to the study recommendations. These comments are
in Appendix A.
           APPENDIX A

Comments      To   The Draft Report
\.......                                                                       ~~~
                                                                               --' -.' -'--
                                                                                      , --/::"	
                                                                                         ('.0 n..    .L .-n..
                                                                                                                                          :- "   (" 

       IC'II"



                  " DEPARTMENT OF HEALTH a. 

                                                                       AN SERVICES
                                                                                                     '7I
                                                                                                                Ofce of the    Secet
                                                                                                                Washington ,   D. C.   20201
                Administration on Aging 

                                                              IG AS 


                                                          \ DIC-EI
                                                            DI\d- :Jr
                                                            AI'J-	 1P                                                                          c= ::
                                                            OGC/IG 	                            MAY 3 I                                     , rn
                                                            EX SEe	                                                                      fT 0
                                                                                                                                         - -n "'oJ
                                                            DAT         SE 	
                                                                                                                                           . VI
                                                                                                                                               :Z­
                                                                                                                                          . I"

                TO:	                        Richard P. Kusserow

                                            Inspector General


                FROM:	                      u. s. Commissioner on Aging

                SUBJECT:	                   OIG Draft Report "Successful Ombudsman Programs,

                                            OEI-02-90-02120



                                             draft report.
                Recently your office requested that the Administration on Aging

                (AoA) review and provide comments as appropriate on the above-

                ref erenced
                AoA staff have reviewed the draft and, while we do not fully

                support all the conclusions, we believe that it contains a great

                deal of useful information. The draft certainly describes
                effective operational models and should prove to be a useful tool
                in compiling information on exemplary ombudsman programs and
                practices. Our specific comments are outlined briefly below.
                A numer of the concerns    raised in the draft focus on the
                National Center for State Long Term Care Ombudsman Resources.
                Recommendations 2-4 on p. iii of the Executive Sumary and page
                10 of the draft report are particularly relevant to the work of
                the National                    Center.
                                        Indeed, recommendation # 4 specifically
                                                                          I s role.
                refers to the perceived need to " strengthen" the Center
                In general, we believe that the Center has been more active and
                aggress i ve in supporting the Ombudsman Program than the draft
                 suggests.
                 As the draft indicates, the Center is operated by the National
                 Association of State units on Aging in cooperation with the
                 National citizens Coalition for Nursing Home Reform. AoA has
                 provided the Center with considerable financial support. In each
                 of the first two years of operation (FY' s 1988 and 1989), the
                 Center for State Long Term Care Ombudsman Resources received more
                 Title IV funds ($387, 488 in FY 88, $500, 000 in FY 89) than any of
                 the other National Aging Resource Centers which AoA supported.
                 The Center also received $500, 000 in Title IV funding in FY 1990.

                 The goal of the National Center for state Long Term Care      Is
                 Ombudsman Resources is to enhance' the capacity of the nation
                 state Agencies on Aging in the design, development and
                 administration of statewide long term care Ombudsman Programs.
                                  '.




Page 2 - Richard P. Kusserow

The Center I s primary focus is on building statewide systems of
ombudsman services to address the issues facing older residents
in long term care  facilities.
                                                    numer of
During its first two years, the Center initiated a
acti vi ties including: development of a state Ombudsman Resource
Manual; mUlti-regional teleconferences for information sharing
wi th and among states; a National Training Conference for
Ombudsman and state staff; training modules for states  to use in
                                                     legislation;
training local ombudsmen; simplified guides to OBRA 

a bi-monthly Center newsletter called the "Ombudsman Reporter"

and, production of a video to introduce the Ombudsman Proqram to

                                                               for
the general public that will also serve as a viable recruitment

                                             responsibiliti
tool.    In addition to the Resource Center' s
technical assistance and training for states, the Center


volunteers.
conducted a study of ombudsman services to residents of board and
care facilities. One section of this study is devoted to use of


AoA fully intends to continue to provide on-qoing support to the

Ombudsman Proqram. On April 29, 1991, we issued a Program
Announcement (AoA-91-2) for awards authorized under Titles II and
IV of the Older Americans Act to establish a series of "National
Eldercare Institutes " to work in cooperation with the National

Eldercare Campaign. A portion of the funds awarded under this

announcement will be expended to provide for the continuation of

a national focal point for the ombudsman support activities

currently provided by the National Center for state Long Term

Care Ombudsman Resources . within this framework issues to be
                                                    include:
addressed pertaining to the ombudsman program will 

         Identification of relevant Federal legislation;
                                            

         Dissemination of best practice models;

         Analysis of program develop trends; and,

         Examination of changes needed to improve program

         effectiveness .
 Finally, let me note that, in March, 1991, AOA convened  a
                                                 Representatives

 National Roundtable on the Ombudsman Program. 

 with the AOA to discuss roles of the ombudsman, model
                                                        services,

 from state and local programs and from national organizations  met

 and future directions for the ombudsman program
                                                  nationwide.
 I hope that you will find these comments

                                           useful. If  you have any
                            information, please let me know.
 questions or need further 

 Thank you.
with representatives of the aging network. In a series of
focus groups, Administration on Aging and National Association
of state Units on Aging staff discussed these issues with a
sample of state and Area Agencies on Aging and service
providers. The Administration on Aging will be following up
on several of the ideas generated in these discussions. The
establishment of the Eldercare Volunteer Corps and our
thinking about expansion of the Corps, builds upon ideas
discussed during these sessions.
The Administration on Aging will be working closely with state
and Area Agencies on Aging to assist you in the implementation
of this important volunteer initiative.  Further information
regarding the Eldercare Volunteer Corps will be forthcoming.
A press release regarding this announcement is enclosed for

your information.

INQUIRIES:	    Inquiries should be addressed to Regional
               Program Directors on Aging, HHS Regional
               Off ices




Attachment
- ,,'-II­

                   DEPARTMENT OF HEALTH. HUMAN SERVICES	               Of of th Se-.y
            l.
                 Administration on Aging	                              W88ton. D. C.   20201




                                               APR 2 3 1991




                                       INFORMTION MEMORADUM

                                            AOA-IM-91-22



                                            STATE AND  AR  AGENCIES ADMINISTERING
                                            PLAS UNDER TITLE III OF THE OLDER
                                            AMERICANS ACT OF 1965, AS AMDED

                 SUBECT	                    Older Americans Act Eldercare Volunteer
                                            Corps
                 LEGAL AND RELATED

                 REFERCES	                  Older Americans Act, as amended



                 Recently I announced the establishment of the Older Americans Act

                 Eldercare Volunteer Corps. Volunteers have been the backbone of the

                 Older Americans Act service system since its inception in 1965 and

                 curren ly there are nearly 500, 000 volunteers providing services
                 and assistance to older persons across the Nation, many of them at
                 risk of losing their independence.
                 The National Eldercare   campaign seeks to broaden the base of
                 support   and  commitment to our Nation'      vulnerable elderly
                 population by reaching out to   organizations and individuals and
                 invi ting them to participate in solutions to the problems facing
                 many of our older citizens. The Eldercare Volunteer Corps provides
                 an opportunity for young and old alike to support the National
                 Eldercare Campaign by contributing a portion of their time and
                 effort to  improve the lives of older persons, especially those
                 vulnerable elderly who are at risk of losing their independence.
                 Eldercare campaign, can substantially benefit from the
                 These at-risk elderly, the beneficiaries and focus of the National
                 contributions made by volunteers.


                 The Eldercare Volunteer Corps       is designed to build upon          the
                 existing efforts of State and Area Agencies on Aging and service
                 providers to promote and support volunteer acti vi ties in Older
                 Amer icans Act programs. Recrui tment,       retention,
                                                                    training and
                  supervision are critical components of any volunteer program and,
                  in order to determine the most effective means of strengthening
                  current efforts, the Administration on Aging recently consulted
